George Grob

Deputy Inspector General

 for Evaluation and Inspections


Effects of the Prospective Payment System on Access to Skilled Nursing Facilities for Patients

with End-Stage Renal Disease (OEI-02-99-00402)


Kathleen Buto

Deputy Director, Center for Health Plans 

  and Providers, HCFA


In response to requests from your staff, the Office of Inspector General (OIG) has conducted
an analysis of the potential effects of the prospective payment system on access to skilled
nursing facilities for patients with end-stage renal disease (ESRD). This analysis supplements
an earlier report entitled, Early Effects of the Prospective Payment System on Access to Skilled
Nursing Facilities, OEI-02-99-00400, where one of the findings included dialysis patients as
among those more difficult to place.

Background

The Health Care Financing Administration asked OIG to assess whether the new prospective
payment system for skilled nursing facilities (SNFs) is causing access problems for Medicare
beneficiaries. To answer this question, we contacted a random sample of hospital discharge
planners who are responsible for coordinating nursing home care for patients being discharged
from hospitals. We asked them about their ability to place Medicare patients in nursing homes
and about changes in nursing home admissions practices. We also examined Medicare data
related to SNF discharges and hospital length of stay.

Our analysis showed that so far, there are no serious problems in placing Medicare patients in
nursing homes. Generally, discharge planners report that they can place Medicare patients in
nursing homes. Medicare data also confirm that there are no changes in nursing home
placements for Medicare patients. However, discharge planners also report that nursing homes
are changing their admissions practices in response to the prospective payment system.
Specifically, they note that patients who need extensive services have become more difficult to
place, including ESRD patients who have high transportation costs because of their need for
dialysis. We also found that patients who need rehabilitation services have become easier to
place.

After reviewing these findings, your staff asked us to look at any early effects of the
prospective payment system on access to SNFs for ESRD patients. In response, we selected a
20 percent sample of all Medicare beneficiaries from the Medicare National Claims History File
and reviewed data for patients who had a discharge diagnosis for renal failure (DRG 316) or
for renal dialysis (DRG 317), or who had been in the hospital for other reasons and had end-
stage renal disease. These patients are referred to as ESRD patients for the purposes of this
analysis. We analyzed discharge patterns and hospital length of stay data for ESRD patients for
the first 5 months in 1998 and the same 5 months in 1999. Our sample included 3,384 ESRD
patients who were discharged to SNFs during this time period in 1998 and 3,981 ESRD
patients who were discharged to SNFs in 1999.

FINDINGS

Changes in discharge patterns to SNFs and length of hospital stays for end-
stage renal disease patients are small.

Medicare data show small changes in the overall proportion of discharges to SNFs for ESRD
patients. This proportion increased slightly from 11.2 percent in the first 5 months in 1998,
which is prior to the implementation of the prospective payment system, to 11.9 percent in the
same 5 months in 1999, which is after the implementation of the new system. (See Table 1.)

                                         Table 1

               Distribution of Medicare End-Stage Renal Disease (ESRD) 

                      Patient Discharges to Post Hospital Services,

                             First 5 Months of 1998 and 1999




                           January to May            January to May
                                1998                      1999
     Post Hospital          Percent of              Percent of               Difference
       Service            ESRD Discharges         ESRD Discharges            1998-1999


  Home                            63.8                    60.6                   -3.2 **

  SNF                             11.2                    11.9                    0.7 **

  Home Health                      8.6                     9.1                    0.5 *

  Intermediate Care                1.7                     2.1                    0.3 **

  Other                           14.8                    16.4                    1.7 **
    Source: Medicare National Claims History File
    Note: Includes End-Stage Renal Disease patients and patients with DRGs 316 or 317.
          Differences may be due to rounding.
     * Statistically significant at the .05 level.
    ** Statistically significant at the .01 level.
The data also show no significant changes in the types of ESRD patients discharged to SNFs.


                                                2

           The largest difference is among patients with renal failure (DRG 316) and that difference
           reflects an increase in placements to SNFs. As shown in Table 2, a greater proportion of
           ESRD patients with renal failure went to SNFs in the first 5 months of 1999 compared to the
           same time period in 1998. Medicare data show small changes in discharges to SNFs for
           ESRD patients with other diagnoses. None of the estimates are statistically significant,
           however.


                                                       Table 2

                            Distribution of Medicare ESRD Discharges to Nursing Homes

                                            by Diagnosis Related Groups,

                                           First 5 Months of 1998 and 1999




                                                             January to May          January to May         Difference
 DRG                      Description                             1998                    1999              1998-1999

                                                              Percent of              Percent of
                                                            ESRD Discharges         ESRD Discharges

  316     Renal failure                                              38.7                   40.9                 2.2

  113     Amputation for circulatory system
          disorders                                                  4.1                     3.6                -0.5
  478     Other vascular procedures with
          complication or comorbid condition                         3.8                     4.1                 0.2
  127     Heart failure and shock                                    3.1                     2.9                -0.2

  416     Septicemia                                                 2.9                     2.4                -0.5
  144     Other circulatory system diagnoses with
          complication or comorbid condition                         2.8                     3.4                 0.6

  120     Other circulatory system operating room
          procedures                                                 2.4                     2.9                 0.5
  089     Simple pneumonia and pleurisy                              2.1                     2.5                 0.5

  014     Specific cerebrovascular disorders                         1.8                     1.5                -0.3

  415     Operating room procedure for infectious
          and parasitic diseases                                     1.7                     1.2                -0.5

  468     Extensive operating room procedure
          unrelated to principal diagnosis                           1.3                     1.6                 0.3

Note:   Differences may be due to rounding.                                 Source: Medicare National Claims History File
        Differences were not statistically significant at the .05 level.



                                                                3

      Overall, the average hospital length of stay for ESRD patients discharged to SNFs was 10.2
      days in the first 5 months of 1998 compared to 10.4 days in the same period in 1999. This
      difference is not statistically significant. Average length of stay did change for a few DRGs.
      As shown in Table 3, the average length of stay increased in two of the most common DRGs
      and decreased in one of the most common DRGs for the ESRD population.

                                                Table 3

                      Average Length of Stay of ESRD Patients Discharged to SNFs

                                    by Diagnosis Related Groups,

                                   First 5 Months of 1998 and 1999



                                                       January to May           January to May
                                                           1998                     1999
                                                     Average Length of Average Length of              Difference
DRG                    Description                     Stay in Days      Stay in Days                 1998-1999

316   Renal failure                                              8.9                   9.1                 0.2

113   Amputation for circulatory system
      disorders                                                  14.0                  13.4               -0.6
478   Other vascular procedures with
      complication or comorbid condition                         8.9                   11.4                2.5 *

127   Heart failure and shock                                    7.6                   6.1                -1.5
416   Septicemia                                                 10.2                  12.5                2.3
144   Other circulatory system diagnoses with
      complication or comorbid condition                         7.0                   8.3                 1.3
120   Other circulatory system operating room
      procedures                                                 8.1                   11.3                3.2 *
089   Simple pneumonia and pleurisy                              8.7                   7.7                -1.0

014   Specific cerebrovascular disorders                         11.3                  9.4                 -1.9

415   Operating room procedure for infectious
      and parasitic diseases                                     21.3                  16.4               -4.9 *

468   Extensive operating room procedure                         15.1                  20.5                5.4
      unrelated to principal diagnosis
      *Statistically significant at the .05 level. Source:              Medicare National Claims History File

      We hope this information will be helpful to HCFA staff as they continue to monitor the effects
      of the prospective payment system. If you have any questions or comments about this
      memorandum, please call me or have your staff call Stuart Wright at (410) 786-3144.


                                                             4
